APPENDICES TABLE OF CONTENTS
APPENDIX A- Court of Appeals judgement
PI
APPENDIX B - Magistrate’s Report & Recommendation;
District Court’s
Adopting the Report & Recommendation; and District Court
Denying
Wheeler’s request for
Counsel.................................................................................... A
APPENDIX C - Court of Appeals Denying Rehearing En Banc
XT

APPENDIX D - State Supreme Court denials: (in chronological
order) Denial to Suspend Rule 32 and Denying Wheeler to file a
60 page brief: Direct Appeal called frivolous; Direct Appeal
Rehearing denied; Affirmed Dismissal of 2007 postconviction;
Postconviction Rehearing denied;-Affirmed as Modified 2015
postconviction; Civil Rights Appeal in Schmalenberger case
Affirmed; Civil Rights Appeal in Burgum case
2b
Affirmed

APPENDIX E - State District Court orders: Trial court denying
Defendants Motion to Suppress; Denying Defendants Ex Parte
request to conduct Research at Libraries other than the UND
Library; Denying Motion to Reconsider the Research of those
Libraries; Trial Court denying Motion to Correct the Record;
Order and Judgement Granting State’s Motion to Dismiss2007
postconviction; Order Denying Request for Leave to allow
collection of Discovery Materials; Order Denying Motion to
Conduct an investigation to challenge the Validity of the Verdict;
Order Granting States Motion to dismiss Application for
Postconviction Relief and Order Regarding any future filing in
2015 postconviction; In Civil Rights cases: Order granting Motion
for Summary Judgment on Schmalenberger case; Order Denying
Motion for Reconsideration and Request for Appointment of
Counse; & Granting Dismissal and Denying Request for Counsel
in the Burgum
case

//
//

APPENDIX F - RECORD and TRANSCRIPTS: Preliminary
hearing transcripts;
Motion to Suppress transcripts; Trial transcripts of Doctor on
cross examination
By prosecution about Tanner Scale; Trial transcript in closing
arguments by prosecution;
Letter from state Supreme Court Clerk on 50 page brief for direct
appeal; Letter from State Supreme Court Clerk on Motion to
Correct the Record; Two Letters from State District Court Clerk
on 2016 postconviction
BO
relief
APPENDIX G - Miscelaneous Documents: Wheeler’s Motion
and Brief for a Continuance for trial; Order for Trial Transcripts
by Wheeler; State District Docket entries; Letter to Wheeler from
trial court courtreporter; Letter from trial Judge; Letter from court
reporter to trial Judge; State’s Brief in Opposition to Wheeler’s
2007 postconviction in state District Court; State’s Brief
Opposing Wheeler’s Postconviction in State Supreme court;
Affidavit of Defense witness in Wheeler’s criminal trial relating
to 2007 postconviction; one page grievance on interfering with
law library access ; & grievance on prison officials ignoring video
proof of staff misconduct..............................
<?/
APPENDIX II - Wheeler’s Documents: Motion for Rehearing
En Banc; Request for Court Appointed Counsel in U.S. District
Court; Wheeler’s Objections to Magistrate’s Report and
Recommendations; Appellant Brief in Court of Appeals; Motion
to Correct the Record in state District Court; Motion to Correct
the Record in state Supreme Court; 2007 Application for Leave of
court to Collect Discovery Materials; Appellant Brief by Wheeler
in state Supreme Court on 2007 postconviction; Petition to Rehear
Affirmance of District Court’s Dismissal of 2007 postconviction;
Application for Postconviction Relief in 2016; Wheeler’s
Appellant Brief on direct appeal, followed by the 10 pages
Wheeler was forced to remove befoe filing; & Petition to Rehear
in state Supreme Court on Direct
Jjr.O
Appeal

table

OF CONTENTS &F EX 1 PITS

i) CDA S AFFtrying the District Courts D ISAtifSal t
Qe.Ufiny Rehearing Fr Bone

X

3). /Dagis1rates Report- t Recommendation
y), District (ourt Adeptmg the A i R

Vj, Suprerne
f).

\

?

/ /f

Courts Clerks letteF

XQ

heeler S' trial transcript i„ port C H pages)

0.X

h). Wheelers trial transcript Frorn CRsuip argonarts (I page)

25

l\ 6rmdforks Police. Dept, s it''catering letter-

27

$), Wheelers tDhjecf/eoS tt> the R'i R

2B

I

Eyrihi't /

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-3027

LeRoy K. Wheeler
Plaintiff - Appellant
v.
State of North Dakota; Doug Burgum, as Governor
Defendants - Appellees
Appeal from U.S. District Court for the District of North Dakota - Bismarck
(1:18-cv-00265-DLH)
JUDGMENT

Before KELLY, WOLLMAN, and KOBES, Circuit Judges.
This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. The appellant’s
motion for leave to proceed on appeal in forma pauperis is granted. The full $505.00 appellate
filing and docketing fees are assessed against the appellant. Appellant may pay the filing fee
in installments in accordance with 28 U.S.C. § 1915(b). The court remands the collection of
those fees to the district court.
December 10, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
^x /

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-3027
LeRoy K. Wheeler
Appellant
v.
State of North Dakota and Doug Burgum, as Governor
Appellees

Appeal from U.S. District Court for the District of North Dakota - Bismarck
(1:18-cv-00265-DLH)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Erickson did not participate in the consideration or decision of this matter.
January 14, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

£x 2

